APPENDIX

TABLE OF CONTENTS
Appendix A:

Court of appeals opinion,
Aug. 14, 2019.................................................1a

Appendix B:

District court memorandum opinion
and order, Dec. 7, 2016 ..............................17a

Appendix C:

Magistrate judge memorandum order,
May 28, 2013 ...............................................37a

Appendix D:

Court of appeals order,
Dec. 6, 2019 .................................................42a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-41674
ARCHER AND WHITE SALES, INCORPORATED,
Plaintiff-Appellee
v.
HENRY SCHEIN, INCORPORATED; DANAHER
CORPORATION; INSTRUMENTARIUM DENTAL,
INCORPORATION; DENTAL EQUIPMENT, L.L.C.;
KAVO DENTAL TECHNOLOGIES, L.L.C.; DENTAL
IMAGING TECHNOLOGIES, CORPORATION,
Defendants-Appellants
Filed: August 14, 2019
HIGGINBOTHAM, GRAVES, and HIGGINSON, Circuit Judges.
OPINION
PATRICK E. HIGGINBOTHAM, Circuit Judge.
In light of the Supreme Court’s decision, we consider
anew the question of whether the parties in this dispute
delegated the threshold arbitrability determination to an
arbitrator. After being sued for antitrust violations, defendants in this suit sought to enforce an arbitration

(1a)

2a
agreement. Initially, the magistrate judge granted a motion to compel arbitration, concluding that the question of
arbitrability of the claims itself belonged to an arbitrator.
The district court disagreed, holding that the arbitrability
question was one for the courts. This panel affirmed.1 We
determined that we need not reach the issue of whether
the arbitration provision delegated the issue of arbitrability to an arbitrator because of a then-established narrow
exception: where an assertion of arbitrability was “wholly
groundless,” a court was not required to submit the issue
of arbitrability to an arbitrator. Determining defendants’
arguments for arbitrability were wholly groundless, we
affirmed the district court’s holding that the claims were
not arbitrable.
The Supreme Court reversed, holding that the
“wholly groundless” exception was inconsistent with the
Federal Arbitration Act.2 The Court declined to opine on
whether the contract in this case in fact delegated the
threshold arbitrability question to an arbitrator, remanding for this court to make that determination in the first
instance. It reminded that “courts ‘should not assume
that the parties agreed to arbitrate arbitrability unless
there is clear and unmistakable evidence that they did
so.’”3 Tasked with interpreting the arbitration clause
anew, we conclude that the parties have not clearly and
unmistakably delegated the question of arbitrability to an
arbitrator. Accepting that the district court had the
power to decide arbitrability, we now hold that the district
1
Archer & White Sales, Inc. v. Henry Schein, Inc., 878 F.3d 488
(2017), rev’d, 139 S. Ct. 524 (2019).

Henry Schein, Inc. v. Archer & White Sales, Inc., 139 S. Ct. 524,
528 (2019).
2

3
Id. at 531 (quoting First Options of Chi., Inc. v. Kaplan, 514 U.S.
938, 944 (1995)).

3a
court correctly determined that this case is not subject to
the arbitration clause and affirm.
I.
The origins of this dispute are well-known; the complaint in this case was filed nearly seven years ago.4 Plaintiff-Appellee Archer and White Sales, Inc. is a familyowned company that distributes, sells, and services dental
equipment. It brought this antitrust suit against Defendant-Appellants Henry Schein, Inc., Danaher Corporation,
and a number of subsidiaries who distribute and manufacture dental equipment. Archer claims that defendants entered into an anticompetitive agreement to restrict
Archer’s sales and to boycott Archer. Archer’s complaint
alleges violations of federal and Texas antitrust law and
seeks money damages and injunctive relief.
The contract between Archer and Pelton and Crane,
one of the defendant’s predecessors-in-interest, (the
“Dealer Agreement”) contains an arbitration clause that
is at the heart of this dispute. It provides:
Disputes. This Agreement shall be governed by the
laws of the State of North Carolina. Any dispute arising under or related to this Agreement (except for actions seeking injunctive relief and disputes related to
trademarks, trade secrets, or other intellectual property of Pelton & Crane), shall be resolved by binding
arbitration in accordance with the arbitration rules of
the American Arbitration Association [(AAA)]. The
place of arbitration shall be in Charlotte, North Carolina.
After the case was referred to a magistrate judge, defendants invoked the Federal Arbitration Act and moved
4

Id. at 528–29; Archer & White, 878 F.3d at 491.

4a
to compel arbitration. Archer opposed that motion, arguing that its complaint sought injunctive relief and the arbitration clause explicitly excluded actions seeking such
relief.
The magistrate judge granted the motion, determining that the arbitrability question should be left to an arbitrator because the Dealer Agreement incorporated the
AAA rules and there was at least a “plausible construction” that would compel arbitration. Three years later,
the district court vacated that order and held that the
court could decide the threshold arbitrability question,
reasoning that this action fell squarely within the arbitration clause’s express exclusion of actions seeking injunctive relief.
We affirmed. Relying on an exception then operative
in at least four circuits,5 we concluded that defendants’ argument for arbitration was wholly groundless. In our
view, there was “no plausible argument that the arbitration clause” applied to an action seeking injunctive relief.6
Applying our precedent in Douglas v. Regions Bank,7 we
determined that because the assertion of arbitrability was
implausible, the threshold arbitrability question should be
decided by the district court.8 The Supreme Court reversed, eliminating that exception and abrogating Douglas. Relying on the text of the Federal Arbitration Act,
the Supreme Court held that if a “contract delegates the
arbitrability question to an arbitrator, a court may not

See Henry Schein, 139 S. Ct. at 528–29 (collecting cases from the
Fourth, Fifth, Sixth, and Federal Circuits applying the exception).
5

6

Archer, 878 F.3d at 497.

7

757 F.3d 460 (2014).

8

Archer, 878 F.3d at 497.

5a
override the contract.”9 The Court reaffirmed its holding
in First Options, that “parties may delegate threshold arbitrability questions to the arbitrator, so long as the parties’ agreement does so by ‘clear and unmistakable’ evidence.”10 Sending the case back to us, the Court instructed this court to determine whether clear and unmistakable evidence of the parties’ delegation exists here.11
II.
We review a ruling on a motion to compel arbitration
de novo.12 Our inquiry proceeds in two steps. The first is
a matter of contract formation—“whether the parties entered into any arbitration agreement at all.”13 Next we
turn to the question of contract interpretation and ask
whether “this claim is covered by the arbitration agreement.”14 While ordinarily both steps are questions for the
court,15 the parties can enter into an arbitration agreement that delegates to the arbitrator the power to decide
whether a particular claim is arbitrable.16 The Supreme
Court has repeatedly made clear that “parties can agree
9

Henry Schein, 139 S. Ct. at 529.

10

Id. at 530 (quoting First Options, 514 U.S. at 944).

While both parties read the tea leaves in the questions asked by
the Justices at oral argument, attempting to shepherd them to support their own positions, the Court declined to decide whether this
agreement in fact delegated the arbitrability question.
11

12
Kubala v. Supreme Prod. Servs., Inc., 830 F.3d 199, 201 (5th Cir.
2012).
13

Id.

14

Id.

Id. (citing Will-Drill Res., Inc. v. Samson Res. Co., 352 F.3d 211,
214 (5th Cir. 2003)).
15

16

Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79, 83 (2002).

6a
to arbitrate ‘gateway’ questions of ‘arbitrability,’ such as
whether the parties have agreed to arbitrate or whether
their agreement covers a particular controversy.”17
When considering whether there was a valid delegation, “the court’s analysis is limited.”18 As always, we ask
if the parties entered into a valid agreement. If they did,
we turn to the delegation clause and ask “whether the purported delegation clause is in fact a delegation clause—
that is, if it evinces an intent to have the arbitrator decide
whether a given claim must be arbitrated.”19 When determining that intent, “[c]ourts should not assume that the
parties agreed to arbitrate arbitrability unless there is
‘clear and unmistakable’ evidence that they did so.”20 If
there is a valid delegation, the court must grant the motion to compel.21
The parties agree that there is a valid arbitration
clause. With respect to delegation, the parties’ arguments
on remand sing a familiar tune. Archer contends that
there is no clear and unmistakable evidence that the parties delegated arbitrability disputes to an arbitrator. The
way the agreement is written, Archer asserts that the
AAA rules (and resulting delegation) only apply to disputes that fall outside of the arbitration clause’s carve-out
for actions seeking injunctive relief. Under their reading,
17
Rent-A-Center, West, Inc. v. Jackson, 561 U.S. 63, 68–69 (2010)
(citing Howsam, 537 U.S. at 83–85).
18

Kubala, 830 F.3d at 202.

19

Id.

First Options, 514 U.S. at 944 (internal citation and alterations
omitted).
20

21
Kubala, 830 F.3d at 202. Of course, Kubala’s statement that “the
motion to compel arbitration should be granted in almost all cases”—
where the argument for arbitration was not wholly groundless—
should now be read without the “almost.”

7a
if a case falls within the carve-out, the agreement does not
incorporate the AAA rules and the gateway arbitrability
question is not delegated to an arbitrator. On the other
hand, defendants argue that the agreement’s incorporation of the AAA rules ends the inquiry. They maintain
that the carve-out for actions seeking injunctive relief
does not trump the parties’ delegation. Defendants warn
that to read the contract as Archer suggests would require the court to make a merits determination about the
scope of the carve-out—whether this is indeed an action
seeing injunctive relief—to answer the delegation question, precisely the category of inquiries a court is precluded from making in answering the delegation question.
“Unless the parties clearly and unmistakably provide
otherwise, the question of whether the parties agreed to
arbitrate is to be decided by the court, not the arbitrator.”22 A contract need not contain an express delegation
clause to meet this standard. As we held in Petrofac, an
arbitration agreement that incorporates the AAA Rules
“presents clear and unmistakable evidence that the parties agreed to arbitrate arbitrability.”23 Under AAA Rule
7(a), “[t]he arbitrator shall have the power to rule on his
or her own jurisdiction, including any objections with respect to the existence, scope, or validity of the arbitration
agreement or to the arbitrability of any claim or counterclaim.”24

22
AT&T Technologies, Inc. v. Commc’n Workers of Am., 475 U.S.
643, 649 (1986).

Petrofac, Inc. v. DynMcDermott Petroleum Operations Co., 687
F.3d 671, 675 (5th Cir. 2012).
23

24
AM. ARBITRATION ASS’N, COMMERCIAL ARBITRATION RULES
AND MEDICATION PROCEDURES 13 (2013), https://www.adr.org/sites/
default/files/Commercial%20Rules.pdf.

8a
It is undisputed that the Dealer Agreement incorporates the AAA rules, delegating the threshold arbitrability inquiry to the arbitrator for at least some category of
cases. The parties dispute the relationship of the carveout clause—exempting actions seeking injunctive relief—
and the incorporation of the AAA rules. The agreement
states that “[a]ny dispute arising under or related to this
Agreement (except for actions seeking injunctive relief
and disputes related to trademarks, trade secrets, or
other intellectual property of [the predecessor]), shall be
resolved by binding arbitration in accordance with the arbitration rules of the American Arbitration Association.”
The agreement in Petrofac explicitly covered “all
claims and disputes,” containing no carve-out provision.25
We have previously applied Petrofac to arbitration provisions that do contain carve-out provisions. In Crawford,
we considered an arbitration agreement that incorporated the AAA Rules and also contained a carve-out that
nothing in the arbitration provision “shall prevent either
party from seeking injunctive relief for breach of th[e
Agreement].”26 Without specifically discussing the carve25

Petrofac, 687 F.3d at 674.

26
Crawford Prof’l Drugs, Inc. v. CVS Caremark Corp., 748 F.3d
249, 256 (5th Cir. 2014). In that case, the Provider Agreement read
as follows:

Any and all disputes in connection with or arising out of the Provider Agreement by the parties will be exclusively settled by arbitration before a single arbitrator in accordance with the Rules of
the American Arbitration Association. The arbitrator must follow
the rule of Law, and may only award remedies provided for in the
Provider Agreement . . . . Any such arbitration must be conducted
in Scottsdale, Arizona, and Provider agrees to such jurisdiction, unless otherwise agreed to by the parties in writing. The expenses of
arbitration, including reasonable attorney's fees, will be paid for by
the party against whom the award of the arbitrator is rendered . . . .
Arbitration shall be the exclusive and final remedy for any dispute

9a
out, we held that the Crawford agreement’s incorporation
of the AAA rules was “clear and unmistakable evidence
that the parties to the [] Agreement agreed to arbitrate
arbitrability.”27 Under the terms of that agreement, the
gateway arbitrability question was delegated to the arbitrator. The Ninth Circuit considered a similar agreement
in Oracle Am., Inc. v. Myriad Group A.G.28 The arbitration clause adopted arbitration rules delegating arbitrability issues to the arbitrator and contained a carve-out for
certain intellectual property and licensing claims.29 Because the claims carved-out by that agreement “ar[ose]
out of or relat[ed] to” the Source License, and the agreement explicitly provided that any claim arising out of the
between the parties in connection with or arising out of the Provider Agreement; provided, however, that nothing in this provision
shall prevent either party from seeking injunctive relief for breach
of this Provider Agreement in any state or federal court of law . . . .
27

Id. at 263.

28

724 F.3d 1069, 1072–75 (9th Cir. 2013).

29

The agreement at issue stated, in relevant part:
Any dispute arising out of or relating to this License shall be
finally settled by arbitration as set out herein, except that either party may bring any action, in a court of competent jurisdiction (which jurisdiction shall be exclusive), with respect to
any dispute relating to such party’s Intellectual Property
Rights or with respect to Your compliance with the TCK license. Arbitration shall be administered: (i) by the American
Arbitration Association (AAA), (ii) in accordance with the rules
of the United Nations Commission on International Trade Law
(UNCITRAL) (the “Rules”) in effect at the time of arbitration
as modified herein; and (iii) the arbitrator will apply the substantive laws of California and United States. Judgment upon
the award rendered by the arbitrator may be entered in any
court having jurisdiction to enforce such award.

Id. at 1071.

10a
Source License was subject to arbitration, the Ninth Circuit held that Oracle’s carve-out argument “conflate[ed]
the scope of the arbitration clause . . . with the question of
who decides arbitrability.”30
The Second Circuit has also considered an arbitration
clause that incorporated the AAA rules and exempted certain claims from arbitration.31 The court noted that it had
“found the ‘clear and unmistakable’ provision satisfied
where a broad arbitration clause expressly commits all

Oracle, 724 F.3d at 1076. The clause in Oracle provided that “any
claim arising out of the Source License shall be settled by arbitration”
but exempted “any dispute relating to such party’s Intellectual Property Rights or with respect to [Myriad’s] compliance with the TCK
license.” Id. at 1075–76. The court noted that the issue with Oracle’s
carve-out argument was that the two categories of exempted claims
by definition were claims arising out of or relating to the Source License, which were explicitly subject to arbitration. Id. at 1076. No
such circularity exists in the contract at issue here.
30

NASDAQ OMX Grp., Inc. v. UBS Securities, LLC, 770 F.3d 1010
(2d Cir. 2014). That agreement provided in relevant part:
31

A. Except as may be provided in the NASDAQ OMX Requirements, all claims, disputes, controversies, and other matters in
question between the Parties to this Agreement and the Parties’
employees, directors, agents and associated persons arising out of,
or relating to this Agreement, or to the breach hereof, shall be settled by final binding arbitration in accordance with this Agreement
and the following procedure or such other procedures as may be
mutually agreed upon by the Parties.
B. Except as otherwise provided herein or by agreement of the
Parties, any arbitration proceeding shall be conducted in accordance with the Commercial Arbitration Rules of the American Arbitration Association or in accordance with such other rules and procedures as are agreed to by the Parties.
Id. at 1016.

11a
disputes to arbitration, concluding that all disputes necessarily includes disputes as to arbitrability.”32 However,
the parties in NASDAQ had not clearly and unmistakably
delegated arbitrability “where a broad arbitration clause
is subject to a qualifying provision that at least arguably
covers the present dispute.”33 Because there was ambiguity as to whether the parties intended to have arbitrability
questions decided by an arbitrator—because the dispute
arguably fell within the carve-out—the court held the arbitrability question was for the court to decide.34
Defendants urge that Crawford controls and the only
difference between that arbitration agreement and the
one here is syntax—the ordering of words. But that is precisely the point—the placement of the carve-out here is
dispositive. We cannot re-write the words of the contract.
The most natural reading of the arbitration clause at issue
here states that any dispute, except actions seeking injunctive relief, shall be resolved in arbitration in accordance with the AAA rules. The plain language incorporates
the AAA rules—and therefore delegates arbitrability—
for all disputes except those under the carve-out. Given
that carve-out, we cannot say that the Dealer Agreement
evinces a “clear and unmistakable” intent to delegate arbitrability.
We are mindful of the Court’s reminder that “[w]hen
the parties’ contract delegates the arbitrability question
to an arbitrator, the courts must respect the parties’ decision as embodied in the contract.”35 But we must also heed

32

Id. at 1031.

33

Id.

34

Id. at 1032.

35

Henry Schein, Inc., 139 S. Ct. at 531.

12a
its warning that “courts ‘should not assume that the parties agreed to arbitrate arbitrability unless there is clear
and unmistakable evidence that they did so.’”36 The parties could have unambiguously delegated this question,
but they did not, and we are not empowered to re-write
their agreement.
III.
In addition to disputing whether an arbitrator must
decide the gateway question of arbitrability, the parties
disagree about whether the underlying dispute is arbitrable at all. Accepting that the district court had the power
to decide arbitrability, we next examine whether it correctly determined that the instant action is not subject to
the arbitration clause. We do so against the backdrop of
a strong presumption in favor of arbitration,37 yet we also
remain mindful of the fact that the FAA “does not require
parties to arbitrate when they have not agreed to do so,
nor does it prevent parties who do agree to arbitrate from
excluding certain claims from the scope of their arbitration agreement.”38
The magistrate judge found that while “[o]n the most
superficial level, this lawsuit is clearly an action seeking
injunctive relief since it does seek that relief,” there was
also “a plausible construction [of the Dealer Agreement]
calling for arbitration.” The magistrate judge read the

36

Id. (quoting First Options, 514 U.S. at 944).

See, e.g., Moses H. Cone Mem’l Hosp. v. Mercury Constr. Corp.,
460 U.S. 1, 24–25 (1983) (“[A]s a matter of federal law, any doubts
concerning the scope of arbitrable issues should be resolved in favor
of arbitration . . . .”).
37

38
Volt Info. Scis., Inc. v. Bd. Of Trustees of Leland Stanford Junior
Univ., 489 U.S. 468, 478 (1989) (internal citations omitted).

13a
contract to leave open “the question of whether the exception for actions seeking injunctive relief should be limited
to actions for an injunction in aid of arbitration or to enforce an arbitrator’s award.”
The district court, on the other hand, found that the
carve-out for “‘actions seeking injunctive relief’ is clear on
its face—any action seeking injunctive relief is excluded
from mandatory arbitration.” Thus, the provision’s plain
language includes all actions seeking injunctive relief, not
a more limited category of cases.39 In so holding, the district court pointed out that the carve-out clause is not part
of the AAA’s suggested language, and that “[s]uch an intentional drafting effort . . . is worthy of the court’s notice.” The court declined to “re-write the terms of the
Parties’ agreement to accommodate a party—notably the
party that drafted the agreement—that could have negotiated for more precise language,” and held that the arguments for arbitrability were “wholly without merit based
on the plain language of the arbitration clause itself.”
Defendants urge that, where an arbitration clause
contains a carve-out for injunctive relief and one party
files a complaint seeking both injunctive relief and damages, the court should read the carve-out to permit injunctive relief only as a preliminary matter to preserve the
status quo pending arbitration or on a permanent basis
after the plaintiff secures an arbitration award in its favor.
They suggest that the court must send the damages
clause to arbitration, even if it results in piecemeal litigation. In their view, that reading of the clause preserves
39
The district court observed, “no textual basis exists for reading
the phrase ‘actions seeking injunctive relief’ as ‘actions seeking injunctive relief if such injunctions are in aid of arbitration.’ Further,
the clause does not limit the exclusion to actions seeking ‘only’ injunctive relief, and the Court also declines to read that limitation into the
document.”

14a
the parties’ right to arbitrate the damages claims while
preserving the court’s role in any injunctive proceedings.
They warn that Archer’s interpretation allows a party to
“tack on” a vague request for injunctive relief to evade arbitration.
Archer counters that the plain language of the clause
makes clear that the parties did not agree to arbitrate actions that include a request for injunctive relief—therefore there is no plausible argument that the arbitration
clause applies. Archer emphasizes that arbitration agreements are as enforceable as other contracts, but not more
so, and the court cannot reach beyond the plain and unambiguous language in the agreement.
We note first that the arbitration clause creates a
carve-out for “actions seeking injunctive relief.” It does
not limit the exclusion to “actions seeking only injunctive
relief,” nor “actions for injunction in aid of an arbitrator’s
award.” Nor does it limit the carve-out to claims for injunctive relief. Such readings find no footing within the
four corners of the contract. Under North Carolina law,
“[w]hen the language of a contract is clear and unambiguous, effect must be given to its terms, and the court, under the guise of construction, cannot reject what the parties inserted or insert what the parties elected to omit.”40
The mere fact that the arbitration clause permits Archer
to avoid arbitration by adding a claim for injunctive relief
does not change the clause’s plain meaning. “While ambiguities in the language of the agreement should be resolved in favor of arbitration, we do not override the clear
intent of the parties, or reach a result inconsistent with
the plain text of the contract, simply because the policy

40
Procar II, Inc. v. Dennis, 721 S.E.2d 369, 371 (N.C. Ct. App.
2012) (quoting Taylor v. Gibbs, 268 N.C. 363, 365, (1966)).

15a
favoring arbitration is implicated.”41 Fundamentally, defendants ask us to rewrite the unambiguous arbitration
clause. We cannot.
Defendants urge that this reading would lead to absurd results, where one party could unilaterally evade the
agreement to arbitrate with an attenuated request for injunctive relief. This argument overreaches. Even if we
re-wrote the carve-out clause to apply only to actions
seeking significant injunctive relief—which we cannot—
this particular action would still fall within that exception.
Archer’s complaint alleges multiple continuing violations
of federal and state antitrust laws.42 As the district court

E.E.O.C. v. Waffle House, 534 U.S. 279, 294 (2002) (emphasis
added) (internal citations omitted).
41

In their initial briefing to this court and in their supplemental
brief on remand, defendants contend that Archer is no longer entitled
to injunctive relief because, during the pendency of this litigation,
their contractual relationship with Archer ended. In support of this
proposition, defendants cite cases where this court has held that
plaintiffs are no longer entitled to injunctive relief. In Hendricks, the
court held that enjoining a plaintiff’s former employer from future
ERISA violations was not appropriate. Hendricks v. UBS Fin.
Servs., Inc., 546 F. App’x 514, 520 (5th Cir. 2013) (per curiam). In
Glanville, a district court found the plaintiffs had no standing to pursue a claim for declaratory and injunctive relief based on their purported misclassification as independent contractors because they no
longer had any employment relationship with the defendants and
thus could not allege future harm. Glanville v. Dupar, Inc., 727
F.Supp.2d 596, 602 (S.D. Tex. 2010). In its initial brief, Archer responded that these cases are inapposite because they do not involve
antitrust violations. Archer notes that other circuits have upheld injunctive relief in private antitrust actions even where the specific conspiracy alleged has ended. See Wilk v. Am. Med. Ass’n, 895 F.2d 352,
378 (7th Cir. 1990) (affirming the grant of an injunction aimed at remedying lasting effects of an illegal boycott). We need not decide this
question here, as the arbitrability question turns only on whether the
42

16a
correctly noted, the proper vehicle to argue Archer failed
to state a claim for relief is a motion under Rule 12. We
cannot address the underlying merits of Archer’s claim at
this stage. It is enough to note that the current action is
indeed an “action seeking injunctive relief.”
IV.
Because this action is not subject to mandatory arbitration, we do not reach Archer’s alternative argument
that third parties to the arbitration clause cannot enforce
such an arbitration clause. We affirm the district court’s
order denying defendants’ motions to compel arbitration.

existing action as a whole constitutes an “action seeking injunctive
relief.”

17a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
Civ. No. 2:12-CV-572-JRG

ARCHER AND WHITE SALES, INC.,
Plaintiff,
v.
HENRY SCHEIN, INC. ET AL.,
Defendants.
Filed: December 7, 2016

MEMORANDUM OPINION AND ORDER
RODNEY GILSTRAP, District Judge.
Before the Court is Plaintiff’s Motion for Reconsideration (Dkt. No. 45) of the Magistrate Judge’s Memorandum Order (Dkt. No. 44). Having fully considered the
briefing and the Parties’ arguments at the hearing on November 9, 2016, the Court finds that Plaintiff’s Motion
should be and hereby is GRANTED.

18a
I.

BACKGROUND
a. Factual Background

According to the Complaint, Plaintiff Archer and
White Sales (“Plaintiff”) is a distributor of dental equipment that competes directly against Defendant Henry
Schein, Inc. (“Schein”) and Company X (not named as a
defendant in this action). Plaintiff is allegedly known nationally among dental professionals for its low prices and
high-quality service. (Compl. at 7.) Schein is alleged to be
the largest distributor of dental equipment in the United
States. (Compl. at 5.) Defendant Danaher Corporation
(“Danaher”) is allegedly the largest manufacturer of dental equipment in the United States. (Compl. at 4.) The remaining defendants—Instrumentarium, Dental Equipment LLC d/b/a Pelton & Crane, Dental Equipment LLC
d/b/a DCI Equipment, KaVo, and Gendex—are alleged to
be wholly-owned subsidiaries of Danaher, which were acquired by Danaher since 2004. (Compl. at 4-7.) Danaher
and these subsidiaries are sometimes referred to herein
as the “Manufacturer Defendants.”
Plaintiff alleges that Schein and Company X have conspired to fix prices and to refuse to compete with each
other in the sale of dental equipment to dental professionals. (Compl. at 1–2.) Moreover, Plaintiff alleges that
Schein and Company X have conspired with the Manufacturer Defendants to terminate and/or reduce Plaintiff’s
distribution territory in response to Plaintiff’s low prices.
(Compl. at 2.) Plaintiff claims that this termination constitutes an illegal boycott, orchestrated by the Defendants
to perpetuate the price-fixing agreement and the agreement not to compete between Schein and Company X.
(Compl. at 2.) Plaintiff further claims that Danaher, as the
common supplier to all three horizontal competitors,

19a
knowingly participated in this illegal boycott. (Compl. at
2.)
b. Procedural Background

On August 31, 2012, Plaintiff filed suit against Defendant Schein and the Manufacturer Defendants alleging violations of Section 1 of the Sherman Act, violations of Section 16 of the Clayton Act, and violations of the Texas Free
Enterprise and Antitrust Act. Soon after, on September
26, 2012, the Manufacturer Defendants filed a Motion to
Compel Arbitration and Stay All Proceedings (Dkt. No.
10). A few days later, Defendant Schein also filed a Motion
to Compel Plaintiff to Arbitrate and to Stay Proceedings
(Dkt. No. 14). After holding a hearing on these the Motions, the Magistrate Judge on May 28, 2013, issued an
Order granting both Motions, staying the action pending
arbitration of the asserted claims, and directing the Parties to notify the Court upon completion or abandonment
of the arbitration process (Dkt. No. 44).
On June 10, 2013, Plaintiff filed this Motion for Reconsideration of the Magistrate Judge’s Order (Dkt. No. 45).
Although Plaintiff styled its filing as a “Motion for Reconsideration,” the first sentence of the Motion reads: “Plaintiff Archer and White Sales, Inc. (‘Archer’) objects to and
moves for reconsideration of the May 28, 2013, Memorandum Order.” (Dkt. No. 45 at 1.) As such, it was unclear
whether Plaintiff intended to have the Magistrate Judge
reconsider his Order or whether Plaintiff intended to file
objections to the Order under Rule 72(a). Having reviewed the Motion in full, and noting that Plaintiff filed its
Motion within fourteen days of the Magistrate Judge’s
Order, the Court finds that Plaintiff intended its Motion
to be considered as objections to the Magistrate Judge’s
Order, rather than as a Motion for the Magistrate Judge

20a
to reconsider that Order. The Court now reviews the Motion accordingly.
II. STANDARD OF REVIEW

A party may file objections to a magistrate judge’s order regarding a nondispositive matter within fourteen
days of the order. Fed. R. Civ. Pro. 72(a).1 A district judge
may modify or set aside any part of the order that is
clearly erroneous or contrary to law. Id.
III. LEGAL STANDARD

Under the Federal Arbitration Act (“FAA”), an arbitration agreement that involves interstate commerce is
“valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation of
any contract.” 9 U.S.C. § 2 (2012). Section 3 of the FAA

The Fifth Circuit has yet to determine the appropriate standard
for reviewing a magistrate judge’s ruling on motions to compel arbitration. Lee v. Plantation of Louisiana, L.L.C., 454 F. App’x 358, 360
(5th Cir. 2011) (“[W]e need not reach the question of whether a motion
to compel arbitration is a dispositive or non-dispositive motion for
purposes of the standard of review by the district judge of the magistrate judge’s order.”) Other courts, however, have concluded that a
ruling on a motion to compel arbitration is a non-dispositive ruling.
See PowerShare, Inc. v. Syntel, Inc., 597 F.3d 10, 13–15 (1st Cir.
2010); Virgin Islands Water & Power Auth. v. Gen. Elec. Int’l Inc.,
561 F. App’x 131, 134–35 (3d Cir. 2014); Tige Boats, Inc. v. Interplastic Corp., No. 1:15-CV-0114-P-BL, 2015 WL 9268423, at *1–3 (N.D.
Tex. Dec. 21, 2015) (holding that the magistrate judge’s ruling compelling arbitration was non-dispositive where the ruling stayed the
case rather than dismissing the case pending arbitration). Moreover,
when “review of a non-dispositive motion by a district judge turns on
a pure question of law, that review is plenary under the ‘contrary to
law’ branch of the Rule 72(a) standard,” and thus “there is no practical difference between review under Rule 72(a)’s ‘contrary to law’
standard and review under Rule 72(b)’s de novo standard.” PowerShare, 597 F.3d at 15.
1

21a
requires courts to stay court proceedings pending arbitration for any issue covered by an arbitration agreement.
9 U.S.C. § 3. See also Hornbeck Offshore Corp. v. Coastal
Carriers Corp., 981 F.2d 752, 754 (5th Cir. 1993).
At a high level, courts perform a two-step inquiry to
determine whether to compel a party to arbitrate. Dealer
Computer Servs. v. Old Colony Motors, Inc., 588 F.3d 884,
886 (5th Cir. 2009). First, a court must determine whether
the parties agreed to arbitrate the particular dispute at
issue. Id. See also Mitsubishi Motors Corp. v. Soler
Chrysler-Plymouth, Inc., 473 U.S. 614, 626 (1985). If so,
the court must next determine whether any applicable
federal statute or policy renders the claims nonarbitrable.
Dealer Computer Servs., 588 F.3d at 886. In other words,
the court must determine “whether legal constraints external to the parties’ agreement foreclosed the arbitration
of those claims.” Mitsubishi Motors, 473 U.S. at 628. With
respect to the first inquiry, there are two separate considerations: whether a valid agreement to arbitrate some
claims exists (contract formation) and whether the dispute at hand falls within the terms of that valid agreement
(contract interpretation). Dealer Computer Servs., 588
F.3d at 886. In this case, the Parties do not dispute that a
valid agreement to arbitrate some set of claims exists.
However, the Parties dispute whether that agreement covers the Plaintiff’s claims in this case.
“Arbitration is a matter of contract between the parties, and a court cannot compel a party to arbitrate unless
the court determines the parties agreed to arbitrate the
dispute in question.” Pennzoil Exploration & Prod. Co. v.
Ramco Energy Ltd., 139 F.3d 1061, 1064 (5th Cir. 1998).
The FAA “does not require parties to arbitrate when they
have not agreed to do so, nor does it prevent parties who
do agree to arbitrate from excluding certain claims from
the scope of their arbitration agreement.” Volt Info. Scis.,

22a
Inc. v. Bd. of Trustees of Leland Stanford Junior Univ.,
489 U.S. 468, 478 (1989) (internal citation omitted).
a. The Question Of Arbitrability

Although in most circumstances the Supreme Court
has recognized a liberal policy in favor of arbitration, the
Court has “made clear that there is an exception to this
policy: The question whether the parties have submitted
a particular dispute to arbitration, i.e., the ‘question of arbitrability,’ is ‘an issue for judicial determination [u]nless
the parties clearly and unmistakably provide otherwise.’”
Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79, 83
(2002) (first quoting AT&T Technologies, 475 U.S. at 649
(emphasis added); then quoting First Options of Chicago,
Inc. v. Kaplan, 514 U.S. 938, 944 (1995)). Although the
Court’s definition of “question of arbitrability” is narrow,
it includes “a disagreement about whether an arbitration
clause in a concededly binding contract applies to a particular type of controversy.” Howsam, 537 U.S. at 84 (citing AT&T Technologies, 475 U.S. at 651-52).
The Court has also explained that “[j]ust as the arbitrability of the merits of a dispute depends upon whether
the parties agreed to arbitrate that dispute, so the question ‘who has the primary power to decide arbitrability’
turns upon what the parties agreed about that matter.”
First Options, 514 U.S. at 943 (internal citations omitted).
As to questions of arbitrability, the Court applies a
“strong pro-court presumption as to the parties’ likely intent.” Howsam, 537 U.S. at 86. See also Oxford Health
Plans LLC v. Sutter, 133 S. Ct. 2064, 2068 n.2 (2013) (noting that questions of arbitrability are “presumptively for
courts to decide”); Houston Ref., L.P. v. United Steel, Paper & Forestry, Rubber, Mfg., 765 F.3d 396, 408 (5th Cir.
2014) (“[T]he law presumes that courts have plenary

23a
power to decide the gateway question of a dispute’s ‘arbitrability’—i.e., ‘whether [the parties] agreed to arbitrate
the merits.’”) (quoting First Options, 514 U.S. at 942).
Thus, the Court has held that “[u]nless the parties clearly
and unmistakably provide otherwise, the question of
whether the parties agreed to arbitrate is to be decided
by the court, not the arbitrator.” Howsam, 537 U.S. at 86.
See also First Options, 514 U.S. at 944 (“Courts should
not assume that the parties agreed to arbitrate arbitrability unless there is ‘clea[r] and unmistakabl[e]’ evidence
that they did so.”) (quoting AT&T Technologies, 475 U.S.
at 649).
IV. ANALYSIS

The arbitration clause at issue in this case is found in
a Dealer Agreement between Pelton & Crane2 and Archer
and White Sales, dated October 4, 2007, which established
Archer and White Sales as a distributor of Pelton & Crane
products. (Dkt. No. 46-1, Ex. C.) The arbitration clause
states:
Disputes. This Agreement shall be governed by the laws of the State of North Carolina. Any dispute arising under or related
to this Agreement (except for actions seeking injunctive relief and disputes related to
trademarks, trade secrets or other intellectual property of Pelton & Crane) shall be resolved by binding arbitration in accordance
with the arbitration rules of the American
2
The same arbitration clause is found in Addendum 2 to the Marus
Dealer Agreement (with the name “Marus Dental” substituted for
“Pelton & Crane”) (Dkt. No. 46-1, Ex. D) and Addendum 2 to the DCI
Equipment Dealer Agreement (with the name “DCI Equipment”
substituted for “Pelton & Crane”) (Dkt. No. 46-1, Ex. E).

24a
Arbitration Association. The place of arbitration shall be in Charlotte, North Carolina.
Here, the Parties dispute whether they agreed to arbitrate antitrust claims. Additionally, the Parties disagree
as to who should make that determination—the arbitrator
or this Court.
Plaintiff argues that this action is unambiguously excluded from the arbitration clause because the clause expressly excludes “actions seeking injunctive relief”—and
it is not disputed that Plaintiff seeks injunctive relief.
(Dkt. No. 45, at 3-9.) Defendant responds by contending
that a claim for injunctive relief can be added to most lawsuits, and Plaintiff should not be able to evade arbitration
by merely asking for injunctive relief in addition to Plaintiff’s claim for damages. (Dkt. No. 46, at 7.) According to
Plaintiff, however, the fact that a plaintiff may put forth a
claim for damages in addition to a claim for injunctive relief is simply irrelevant, and the Court must give the contract its plain and unambiguous meaning. (Dkt. No. 45, at
4.) As such, Plaintiff objects to the Magistrate Judge’s ruling on the grounds that it is contrary to the plain language
of the arbitration clause. (Dkt. No. 45, at 4.) Further, both
sets of Defendants argue that the Magistrate Judge correctly held that the question of arbitrability should be determined by the arbitrator rather than this Court.
a. Scope Of Arbitration Clause

“[A] valid agreement to arbitrate applies ‘unless it can
be said with positive assurance that [the] arbitration
clause is not susceptible of an interpretation which would
cover the dispute at issue.’” Pers. Sec. & Safety Sys. Inc.
v. Motorola Inc., 297 F.3d 388, 392 (5th Cir. 2002) (quoting
Neal v. Hardee’s Food Sys., Inc., 918 F.2d 34, 37 (5th Cir.
1990)). However, to determine the scope of an arbitration

25a
agreement, “we look first to whether the parties agreed
to arbitrate a dispute, not to general policy goals.”
E.E.O.C. v. Waffle House, Inc., 534 U.S. 279, 294 (2002).
As such, “[w]hile ambiguities in the language of the agreement should be resolved in favor of arbitration, we do not
override the clear intent of the parties, or reach a result
inconsistent with the plain text of the contract, simply because the policy favoring arbitration is implicated.” Waffle
House, 534 U.S. at 294 (internal citation omitted). The
FAA “simply requires courts to enforce privately negotiated agreements to arbitrate, like other contracts, in accordance with their terms.” Volt Info. Scis., Inc., 489 U.S.
at 478.
The Manufacturer Defendants argue that the only
“sensible” construction of the arbitration clause would require arbitration of the present action. (Dkt. No. 46, at 6.)
Specifically, the Manufacturer Defendants argue that this
dispute is “related to” the parties’ agreement because the
rights Plaintiff seeks to vindicate were created by the
Dealer Agreement. (Dkt. No. 46, at 6.) As to the express
exclusion of actions seeking injunctive relief, the Manufacturer Defendants argue that Plaintiff’s interpretation
of the clause would significantly weaken the arbitration
clause and thus cannot be correct. (Dkt. No. 46, at 7.) According to the Manufacturer Defendants, a party’s “mere
inclusion of a boilerplate request for injunctive relief in a
complaint otherwise seeking a jury trial for a damages
claim” would suffice to remove an action from arbitration.
(Dkt. No. 46, at 7.) As such, the Manufacturer Defendants
propose another interpretation of that express exclusion:
that the exclusion is intended to “allow[ ] a party to seek
injunctive relief in court, particularly where the issue in
dispute involves ‘trademarks, trade secrets or other intellectual property,’ or to seek an injunction in aid of arbitration or to enforce an arbitrator’s award.” (Dkt. No. 46, at

26a
7.) However, these Defendants fail to provide any substantive basis for reading into the Parties’ agreement
such significant limitations.
Defendant Schein adopts the Manufacturer Defendants’ arguments. (Dkt. No. 47, at 13.) Schein also argues
that Plaintiff’s complaint fails to allege facts to support a
claim for injunctive relief. (Dkt. No. 47, at 13.) Specifically,
Schein lists the four eBay factors and argues that Plaintiff
failed to plead the “elements” of a claim for a preliminary
or permanent injunction. (Dkt. No. 47, at 13–14.) The
Court will address each of the Defendants’ arguments in
turn.
First, the Court need not affirmatively decide whether
the present action falls within the clause which indicates
that any disputes “related to” the agreement must be arbitrated, as the ultimate question turns on the clause’s express exclusion, which excludes from arbitration “actions
seeking injunctive relief.”
Second, the phrase “except actions seeking injunctive
relief” is clear on its face—any action seeking injunctive
relief is excluded from mandatory arbitration. Plaintiff’s
action seeks injunctive relief. Applying the plain meaning
of the clause, Plaintiff’s action is excluded from mandatory arbitration.
As Plaintiff noted in its Response to the Manufacturer
Defendants’ Motion to Compel, the arbitration clause in
the Dealer Agreement differs from the standard arbitration clause suggested by the American Arbitration Association (“AAA”). (Dkt. No. 21, at 6 (citing Dkt. No. 10-3,
Ex. B).) Specifically, the clause’s exclusion of actions seeking injunctive relief (and trademark disputes) is not part
of the AAA’s suggested language. The arbitration clause
in this case is unique. Such an intentional drafting effort
as opposed to dropping in standard language is worthy of
the Court’s notice.

27a
Third, the Manufacturer Defendants’ proposed interpretation of the exclusion clause fails based on the plain
language of the clause itself. Those Defendants argue that
the exclusion covers only intellectual property disputes or
actions seeking injunctions in aid of arbitration. However,
no textual basis exists for reading the phrase “actions
seeking injunctive relief” as “actions seeking injunctive
relief if such injunctions are in aid of arbitration.” Further, the clause does not limit the exclusion to actions
seeking “only” injunctive relief, and the Court also declines to read that limitation into the document.
A very similar clause was recently addressed by the
Southern District of New York in Frydman v. Diamond,
No. 1:14-CV-8741-GHW, 2015 WL 5294790 (S.D.N.Y.
Sept. 10, 2015). The clause that excluded actions from arbitration in that case stated:
Should any dispute arise between the Parties which gives rise to injunctive or equitable relief pursuant to the terms of this
Agreement, the Operating Agreements or
the Settlement Agreements, then notwithstanding anything else contained in such
agreements, the party initiating an action
seeking injunctive or equitable relief may
at his/her/its election bring such action in a
court of competent jurisdiction, and each of
the other Parties hereby consent to same
and shall not seek to dismiss or move such
action to arbitration or other adjudication.
Id. at *2 (emphasis added).
The parties’ arguments in that case mirror the arguments presented to this Court. There, the plaintiff argued
that the exception allowed the plaintiff to choose the forum in which to bring any action seeking injunctive relief.

28a
Id. at *2. Meanwhile, the defendants argued that the
clause “was intended to be a narrow exception to the parties’ broad agreement to arbitrate, and that the plaintiff’s
interpretation of [the clause] would render the parties’
agreement to arbitrate meaningless because any party
could avoid arbitration by simply including any type of
claim of injunctive or equitable relief in his complaint.” Id.
at *6. There the defendants also argued that the exclusion
should be interpreted as “a standard ‘aid of arbitration’
provision of the sort that allows a party to an arbitration
agreement to seek equitable or injunctive relief either to
enforce an arbitral award or to maintain the status quo
pending arbitration.” Id. at *6. The court in that case held
that the plain language excluded the plaintiff’s action from
arbitration because the plaintiff’s action sought equitable
relief. In reaching the same conclusion, this Court finds
persuasive the Frydman Court’s emphasis on the plain
language chosen and agreed to by the parties.3
The Manufacturer Defendants’ argument that this
reading of the clause would substantially weaken the arbitration clause simply cannot override the plain meaning
of the words chosen by the parties in their agreement. To
put it concisely, the Court will not re-write the terms of
the Parties’ agreement to accommodate a party—notably,
3
Although the court in Frydman relied on New York state law
principles of contract interpretation to underscore the supremacy of
the plain language, North Carolina law places the same emphasis on
the plain meaning of words in contract interpretation. Under North
Carolina law, “when the terms of a contract ‘are plain and unambiguous, there is no room for construction. The contract is to be interpreted as written,’ . . . and ‘enforce[d] . . . as the parties have made
it.’” State v. Philip Morris USA Inc., 363 N.C. 623, 632, 685 S.E.2d
85, 91 (2009) (first quoting Jones v. Casstevens, 222 N.C. 411, 413, 23
S.E.2d 303, 305 (1942); then quoting Wachovia Bank & Tr. Co. v.
Westchester Fire Ins. Co., 276 N.C. 348, 354, 172 S.E.2d 518, 522
(1970)) (internal citations omitted).

29a
the party that drafted the agreement4—that could have
negotiated for more precise language. It is the duty of the
courts to “enforce privately negotiated agreements to arbitrate, like other contracts, in accordance with their
terms.” Volt Info. Scis., Inc., 489 U.S. at 478. See also
Prima Paint Corp. v. Flood & Conklin Mfg. Co., 388 U.S.
395, 404 n.12 (1967) (noting that the purpose of the Federal Arbitration Act was “to make arbitration agreements
as enforceable as other contracts, but not more so”) (emphasis added).
Finally, Defendant Schein’s argument that Plaintiff
failed to “plead” a claim for injunctive relief also fails.
First, any argument that Plaintiff failed to state a claim
for relief should be raised under Federal Rule of Civil
Procedure 12. There is no such motion before the Court.
Further, the factors articulated by the Supreme Court in
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 394
(2006), are not pleading requirements—rather, they are
factors that are to be considered and carefully weighed by
a court before an injunction should issue. To put it simply,
injunctive relief is a remedy, not a cause of action. See
Prompt Med. Sys., L.P. v. Allscriptsmisys Healthcare
Sols., Inc., No. 6:10-CV-71, 2011 WL 12863577, at *1 (E.D.
Tex. Feb. 11, 2011) (noting that the defendants in that
case failed to provide any authority that an injunction
must be pleaded with more specific facts). See also AT&T
Techs., Inc. v. Commc’ns Workers of Am., 475 U.S. 643,
649 (1986) (“[I]n deciding whether the parties have agreed
to submit a particular grievance to arbitration, a court is
not to rule on the potential merits of the underlying
claims.”).
4
As Plaintiff noted in its Sur-reply to the Manufacturer Defendants’ Motion to Compel, the clause at issue was drafted by Pelton &
Crane. (Dkt. No. 33, at 2.)

30a
Given the plain meaning of the language chosen by the
Parties, and there being no basis for reading significant
limitations into the express exclusion, the Court concludes
that there is, in this case, a “positive assurance” that no
reasonable interpretation of the arbitration clause would
force this action into arbitration. See Pers. Sec. & Safety
Sys., 297 F.3d at 392 (“[A] valid agreement to arbitrate
applies ‘unless it can be said with positive assurance that
[the] arbitration clause is not susceptible of an interpretation which would cover the dispute at issue.’”) (quoting
Neal v. Hardee’s Food Sys., Inc., 918 F.2d 34, 37 (5th Cir.
1990)).
b. The Question Of Arbitrability

The Parties disagree as to who should determine the
scope of the arbitration clause in this case—the arbitrator
or this Court. A general presumption exists in favor of arbitrability being decided by the Court, as “the law presumes that courts have plenary power to decide the gateway question of a dispute’s ‘arbitrability’—i.e., ‘whether
[the parties] agreed to arbitrate the merits.’” Houston
Ref., L.P. v. United Steel, Paper & Forestry, Rubber,
Mfg., 765 F.3d 396, 408 (5th Cir. 2014) (quoting First Options, 514 U.S. at 942). Thus, the Court concludes that the
question of arbitrability should not be sent to the arbitrator in these narrow circumstances for two reasons: (1) the
Parties did not clearly and unmistakably agree to arbitrate the arbitrability of actions seeking injunctive relief;
and (2) Defendants’ argument that Plaintiff’s claims fall
within the scope of the arbitration clause is wholly
groundless. The Court will address these two independent
rationales in turn.

31a
i.

Clear And Unmistakable Evidence

Courts often find clear and unmistakable evidence of
an agreement to arbitrate arbitrability when an agreement includes an express delegation provision. See, e.g.,
Aviles v. Russell Stover Candies, Inc., 559 F. App’x 413,
415 (5th Cir. 2014) (holding that the delegation clause provided clear and unmistakable evidence that the parties intended to arbitrate arbitrability). “A delegation provision
is an ‘agree[ment] to arbitrate “gateway” questions of “arbitrability,” such as . . . whether [the parties’] agreement
covers a particular controversy.’” Douglas v. Regions
Bank, 757 F.3d 460, 462 (5th Cir. 2014). There is no express delegation clause in the agreement before this
Court. Nonetheless, as Schein and the Manufacturer Defendants correctly note, the Fifth Circuit has held that the
adoption of the AAA rules to govern arbitration proceedings “presents clear and unmistakable evidence that the
parties agreed to arbitrate arbitrability.” Cooper v. WestEnd Capital Mgmt., L.L.C., 832 F.3d 534, 546 (5th Cir.
2016) (quoting Petrofac, Inc. v. DynMcDermott Petroleum Operations, Co., 687 F.3d 671, 675 (5th Cir. 2012)).
As such, Defendants rely on Petrofac to argue that the
Magistrate Judge correctly decided to refer the case to an
arbitrator to determine arbitrability based on the Parties
incorporation of the AAA rules. (Dkt. No. 46, at 1; Dkt.
No. 47, at 13.)
As Plaintiff noted during its oral argument, the arbitration clause in Petrofac did not contain any exclusions.
Rather, it was a standard broad arbitration clause. Plaintiff also argues that unlike the arbitration clause in Petrofac, the arbitration clause here “cabins application of the
AAA rules to disputes ‘arising under or related to’ the
Agreement that are not ‘actions seeking injunctive relief’
or ‘disputes relating to trademarks, trade secrets or other
intellectual property of Pelton & Crane.’” (Dkt. No. 48, at

32a
1 (emphasis added).) In other words, according to Plaintiff, the clause represents an agreement that the AAA
rules would govern only when the dispute did not fall
within the expressly excluded categories. This Court finds
such argument to have merit.
Although Plaintiff’s argument at first blush appears
circular, the logic of Plaintiff’s argument holds true given
the exclusion expressly set forth by the Parties. For example, if the present action fell outside of the clause’s express exclusion, any questions as to arbitrability (e.g.,
whether a particular cause of action “arises out of or relates to” the agreement) would be sent promptly to the
arbitrator. That is not the case here, where the present
action falls squarely within the terms of an express
carve-out. Indeed, it would be senseless to have the AAA
rules apply to proceedings that are not subject to arbitration. As such, there is no reason to believe that incorporation of the AAA rules, including the AAA rule that delegates the question of arbitrability to the arbitrator, should
indicate a clear and unmistakable intention that the parties agreed to arbitrate the question of arbitrability in
these circumstances—when an action falls squarely
within the clause excluding actions like this from arbitration. See James & Jackson, LLC v. Willie Gary, LLC, 906
A.2d 76, 81 (Del. 2006) (addressing a broad arbitration
clause that contained a clause allowing injunctive relief to
be pursued in court and holding that “[s]ince this arbitration clause does not generally refer all controversies to
arbitration, the federal majority rule does not apply, and
something other than the incorporation of the AAA rules
would be needed to establish that the parties intended to
submit arbitrability questions to an arbitrator”) (emphasis added).

33a
ii. The “Wholly Groundless” Exception

Even if this Court were to find that the adoption of the
AAA rules constituted clear and unmistakable evidence
that the Parties agreed to arbitrate the question of arbitrability in these unique circumstances, recent guidance
from the Fifth Circuit indicates that in narrow circumstances, a court should nonetheless determine arbitrability where a defendant’s argument in favor of arbitrability
is “wholly groundless.” Douglas, 757 F.3d at 463–64. In
Douglas, the Fifth Circuit addressed whether the question of arbitrability should be sent to the arbitrator. Id. at
462. The arbitration clause at issue in that case defined
the “disputes” that would be subject to arbitration as including “the validity, enforceability, or scope of this Arbitration provision.” Id. at 462. Despite the existence of an
express delegation clause in the arbitration agreement
(which does not exist here), the Fifth Circuit held that the
question of arbitrability need not be sent to arbitration.
Id. at 462–63.
The Circuit held that “[t]he law of this circuit does not
require all claims to be sent to gateway arbitration merely
because there is a delegation provision.” Id. at 463. In its
analysis, the Fifth Circuit relied on a test established by
the Federal Circuit, a test that “most accurately reflects
the law—that what must be arbitrated is a matter of the
parties’ intent.” Id. at 464.5 The Federal Circuit’s test involves two steps: “(1) did the parties ‘unmistakably intend
5
Though cited with approval, it is unclear whether the Fifth Circuit
has expressly adopted the Federal Circuit’s “wholly groundless” test.
Regardless, even if that test has not been adopted by the Fifth Circuit, as discussed in Section IV.b.i above the Court finds that there is
not clear and unmistakable evidence that the Parties intended to send
the question of arbitrability to an arbitrator because the adoption of
the AAA rules in this case applies only to matters subject to arbitration—not to those that are expressly excluded from arbitration.

34a
to delegate the power to decide arbitrability to an arbitrator,’ and if so, (2) is the assertion of arbitrability ‘wholly
groundless.’” Agere Sys., Inc. v. Samsung Elecs. Co., 560
F.3d 337, 340 (5th Cir. 2009) (quoting Qualcomm Inc. v.
Nokia Corp., 466 F.3d 1366, 1371 (Fed. Cir. 2006)). As applied, “the ‘wholly groundless’ inquiry ‘necessarily requires the courts to examine and, to a limited extent, construe the underlying agreement.’” Douglas, 757 F.3d at
463 (quoting InterDigital Commc’ns, LLC v. Int’l Trade
Comm’n, 718 F.3d 1336, 1346–47 (Fed. Cir. 2013), vacated
on other grounds, 134 S.Ct. 1876 (2014) (vacating on mootness grounds)).
In so holding, the Fifth Circuit emphasized that to
hold otherwise would require the plaintiff to go to an arbitrator merely to have the arbitrator “flatly” explain that
the claim did not fall within the scope of the agreement
and promptly send plaintiff back to court. Douglas, 757
F.3d at 463. The Circuit noted the absurdity of such a process:
When [plaintiff] signed the arbitration
agreement containing a delegation provision, did she intend to go through the rigmaroles of arbitration just so the arbitrator
can tell her in the first instance that her
claim has nothing whatsoever to do with her
arbitration agreement, and she should now
feel free to file in federal court? Obviously
not. Id. at 464.
The same unequivocal response from the arbitrator
would just as readily occur here, where the plain language
of the clause carves out and excludes the action brought
by this Plaintiff. As discussed above in Section IV.a, Defendants’ argument that this action seeking injunctive relief should be referred to arbitration is wholly without

35a
merit based on the plain language of the arbitration clause
itself. As a result, the Court finds that even if the inclusion
of the AAA rules for disputes not carved out by the Parties’ own language is held to be clear and unmistakable
evidence that the parties generally agreed to arbitrate the
question of arbitrability, Defendants’ assertion that this
particular action should be arbitrated is “wholly groundless.” Additionally, given the clarity of the arbitration provision discussed above, it would be senseless to refer the
issue of arbitrability to the arbitrator, only to have the arbitrator read the plain language of the clause and then
send the Parties back to this Court.
The Court recognizes that the “wholly groundless” exception in Douglas should be used only in “exceptional”
circumstances, and the Court does not seek to expand that
narrow exception by applying it in this case. See Kubala
v. Supreme Prod. Servs., Inc., 830 F.3d 199, 202 n.1 (5th
Cir. 2016) (“Such cases are exceptional, and the rule in
Douglas is not a license for the court to prejudge arbitrability disputes more properly left to the arbitrator pursuant to a valid delegation clause. So long as there is a ‘plausible’ argument that the arbitration agreement requires
the merits of the claim to be arbitrated, a delegation
clause is effective to divest the court of its ordinary power
to decide arbitrability.”). However, given the precise facts
of this case—that there is no express delegation of arbitrability, but simply the adoption of the AAA rules for disputes not excluded from arbitration—and given that the
plain meaning of the language at issue leaves Schein and
the Manufacturer Defendants with no plausible argument
that this action falls within the narrowed parameters of
those disputes subject to arbitration, application of the
Douglas exception is appropriate in this particular case.

36a
c. Equitable Estoppel

Having concluded that this action falls within the express exclusion contained in the parties’ arbitration clause
and that this action is not subject to mandatory arbitration, the Court need not decide, and does not reach, the
question of whether the third parties to the arbitration
clause in this case can enforce such arbitration clause
V.

CONCLUSION

For the foregoing reasons, the Magistrate Judge’s Order should be and hereby is REVERSED. It is therefore
ORDERED that the Magistrate Judge’s Order (Dkt. No.
44) is hereby VACATED. Accordingly, the Motions to
Compel Arbitration filed by Defendant Schein and the
Manufacturer Defendants are DENIED, and the stay
previously entered in this case is hereby LIFTED.
The trial date for this action is hereby set for February 5, 2018, and the pre-trial hearing date is set for January 8, 2018. Accordingly, the Parties are ORDERED to
meet and confer and thereafter jointly submit a proposed
Docket Control Order to the Court within 14 days of this
Order based on the above trial and pre-trial dates.

37a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
Civ. No. 2:12-CV-572-JRG

ARCHER AND WHITE SALES, INC.,
Plaintiff,
v.
HENRY SCHEIN, INC. ET AL.,
Defendants.
Filed: May 28, 2013

MEMORANDUM ORDER
ROY S. PAYNE, Magistrate Judge.
Currently before the Court are the two motions to
compel arbitration, filed by Defendant Henry Schein, Inc.
(Dkt. No. 14) and by Defendants Danaher Corporation,
Dental Equipment LLC, Dental Imaging Technologies
Corporation, Instrumentarium Dental Inc., and KaVo
Dental Technologies, LLC (hereinafter “the Manufacturer Defendants”) (Dkt. No. 10). For the reasons that follow, the motions are GRANTED.
Plaintiff (“Archer”) is a distributor of dental equipment and competes directly against Defendant Henry

38a
Schein, Inc. (“Schein”), which is alleged to be the biggest
distributor in the country. Defendant Danaher Corporation (“Danaher”), which is alleged to be the biggest manufacturer of dental equipment, has over the last decade
acquired all of the other named defendants, formerly its
smaller competitors in the dental equipment manufacturing field. Archer alleges that Schein conspired with Danaher and its subsidiaries, and one unnamed large distributor, to restrict Archer’s access to the market because
Archer was attempting to sell the equipment to dentists
at discounted prices. In these motions, the Defendants assert that Archer is bound by arbitration clauses in its distributor agreements with some of the Manufacturer Defendants. Defendants also assert that the doctrine of equitable estoppel allows even the Defendants who are not
parties to any contract with Archer containing an arbitration clause to demand arbitration.
The starting point for this case is the arbitration
clause itself. However, it must be read against the background of the strong public policy in favor of arbitration
expressed in the Federal Arbitration Act. 9 U.S.C. § 1, et
seq. The clause provides: “Any dispute arising under or
related to this Agreement (except for actions seeking injunctive relief and disputes relating to trademarks, trade
secrets or other intellectual property of Pelton & Crane1)
shall be resolved by binding arbitration in accordance
with the arbitration rules of the American Arbitration Association.” Three parts of this clause bear upon the outcome of the dispute. First, the opening clause is a broad
one, referring as it does to any dispute related to the
agreement. Second, that broad clause has an exception for

1
Pelton & Crane was the predecessor of one of the Danaher subsidiaries.

39a
actions seeking injunctive relief. Third, the clause incorporates the rules of the AAA.
The Court has no hesitation in concluding that this
lawsuit is a dispute “related” to the distributor agreement. After all, the very rights that Archer claims the Defendants conspired to defeat were created by the distributor agreement and others like it that the record suggests
have similar arbitration clauses. E.g., Dkt. No. 24 at 11.
The fact that Archer was an authorized dealer for the
equipment at issue is essential to its claims. However, the
exception carved out for actions seeking injunctive relief
is problematic to the motions to compel arbitration. On
the most superficial level, this lawsuit is clearly an action
seeking injunctive relief since it does seek that relief. On
the other hand, it does not seek only injunctive relief, and
the Court is persuaded that damages (described in Paragraph 1 of the Complaint as “in the tens of millions of dollars”) are the predominant relief sought. The incorporation of the rules of the AAA provides the answer to this
problem, as those rules very clearly state that the question of the arbitrability of a dispute is referred to the arbitrator under the AAA rules.
In Petrofac, Inc. v. DynMcDermott Petrol Operations, Co., 687 F.3d 671, 675 (5th Cir. 2012), the Court held
that “We agree with most of our sister circuits that the
express adoption of these [AAA] rules presents clear and
unmistakable evidence that the parties agreed to arbitrate arbitrability.” If there were no reasonable construction of the contract that allowed for arbitration, there
would be nothing for an arbitrator to decide. However,
there is in this case a plausible construction calling for arbitration. Thus, the question of whether the exception for
actions seeking injunctive relief should be limited to actions for an injunction in aid of arbitration or to enforce an

40a
arbitrator’s award, should properly be left for the arbitrator to decide.
The case relied upon by Archer actually supports this
analysis. In State of New York v. Oneida Indian Nation
of New York, 90 F.3d 58, 62 (2nd Cir. 1996), the Court held
that “While it is true that exclusionary clauses should not
be given expansive readings, here the language excluding
a certain class of disputes from arbitration was clear and
unambiguous.” (emphasis supplied). As shown above,
that standard has not been met here.
The next question is whether non-signatory defendants can avail themselves of the arbitration clause. Both
sides agree that Grigson v. Creative Artists Agency
L.L.C., 210 F.3d 524 (5th Cir. 2000), is the controlling authority on the application of the doctrine of equitable estoppel in this circumstance, namely whether Archer is estopped from asserting the lack of privity against the nonsignatory defendants who seek to compel arbitration.2 In
Grigson, the Fifth Circuit expressly adopted the Eleventh
Circuit’s test applying equitable estoppel to non-signatory
parties seeking to compel arbitration of “intertwined”
claims. That test provides:
“Existing case law demonstrates that equitable estoppel allows a nonsignatory to compel arbitration in two different circumstances. First, equitable estoppel applies
when the signatory to a written agreement
containing an arbitration clause must rely
on the terms of the written agreement in asserting its claims against the nonsignatory. When each of a signatory’s claims
2
Because both sides agree that Grigson is controlling, the Court
need not consider whether Arthur Andersen LLP v. Carlisle, 556
U.S. 624 (U.S., 2009) would call for further analysis under state law.

41a
against a nonsignatory makes reference to
or presumes the existence of the written
agreement, the signatory’s claims arise out
of and relate directly to the written agreement, and arbitration is appropriate. Second, application of equitable estoppel is
warranted when the signatory to the contract containing an arbitration clause
raises allegations of substantially interdependent and concerted misconduct by both
the nonsignatory and one or more of the
signatories to the contract. Otherwise the
arbitration proceedings between the two
signatories would be rendered meaningless
and the federal policy in favor of arbitration effectively thwarted.”
Id. at 527 (emphasis in original). Both branches of the test
appear to apply here. First, Archer has to rely on its written distributorship agreement with Pelton & Crane in order to allege that it was wrongfully excluded from the
market (e.g., Complaint ¶ 32, Dkt. No. 1 at 10). Second,
the conspiracy alleged between Schein and the Manufacturer Defendants alleges “substantially interdependent
and concerted misconduct by both the nonsignatory and
one or more of the signatories to the contract.” Finally,
the Court cannot presume that the defendants did act
wrongfully, which would be necessary in order for equity
or fairness to override the application of the doctrine in
this instance.
Accordingly, the Motions to Compel Arbitration are
granted and this action is stayed pending arbitration of
the claims asserted herein. All parties are directed to notify the Court when the arbitration process is complete or
if it has been abandoned.

42a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-41674
ARCHER AND WHITE SALES, INCORPORATED,
Plaintiff-Appellee
v.
HENRY SCHEIN, INCORPORATED; DANAHER
CORPORATION; INSTRUMENTARIUM DENTAL,
INCORPORATION; DENTAL EQUIPMENT, L.L.C.,
KAVO DENTAL TECHNOLOGIES, L.L.C., AND
DENTAL IMAGING TECHNOLOGIES,
CORPORATION,
Defendants-Appellants
Filed: December 6, 2019
HIGGINBOTHAM, GRAVES, and HIGGINSON, Circuit Judges.
PER CURIAM.
() Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
Rehearing En Banc (Fed. R. App. P. and 5th Cir.

43a
R. 35), the Petition for Rehearing En Banc is DENIED.
(

)

Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (Fed. R. App. P. and 5th Cir.
R. 35), the Petition for Rehearing En Banc is DENIED.

